O

r

BECKER GALLAGHER

DONNA J. WOLF, J.D.
JULIE A. KERSHNER, J.D.

Briefs and Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 unbound and
40 copies of the foregoing Petition for Rehearing in19929, Louis S. Shuman and Sandra Shuman v.
Commissioner of Internal Revenue, were sent via Next
Day Service to the U.S. Supreme Court, and 3 copies
were sent via Next Day Service and e-mail to the
following parties listed below, this 27th day of March,
2020:
Noel Francisco
Solicitor General of the United States
Room 5616
DEPARTMENT OF JUSTICE
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USD0J.gov
William McCann Paul
INTERNAL REVENUE SERVICE
1111 Constitution Avenue, NW
Washington, DC 20224-0000
appellate.taxcivil@usdoj.gov
Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

Louis S. Shuman
120 South Lee Street
Alexandria, VA 22314
(301) 641-6003
Email: lshumani@msn.com
Petitioner Pro Se
Sandra Shuman
120 South Lee Street
Alexandria, VA 22314
(301) 641-6003
Petitioner Pro Se
Janet A. Bradley [1 copy, U.S. Mail]
Tax Division-Appellate Section
Dept. of Justice
P.O. Box 502
Washington, DC 20044
Alex Shlivko
[1 copy]
Senior Attorney
IRS Office of Chief Counsel
1 Newark Center, Suite 1500
Newark, NJ 07102

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on March 27, 2020.

(AAa

IQ

Donna J. Wolf
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

7-kL1(4-6,4 a7--, a0 a-

Notary Public
[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
February 14, 2023

